Washington, D.C. 20530

July 7, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Merwin Smith v. United States of America,
S.Ct. No. 20-8143
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on May 20, 2021. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on July 16, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 16, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-8143
SMITH, MERWIN
USA

MELISSA GOYMERAC
FPD-EDMO
1010 MARKET ST
STE. 200
ST. LOUIS, MO 63101
314-241-1255
MELISSA_GOYMERAC@FD.ORG

